APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Sixth Circuit
(September 12, 2019) . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order and
Judgment Order in the United States
District Court, Eastern District of
Tennessee at Chattanooga
(March 19, 2019) . . . . . . . . . . . . . . App. 7
Appendix C Order in the Circuit Court of Bedford
County, Tennessee
(January 14, 2011) . . . . . . . . . . . App. 55

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5405
[Filed September 12, 2019]
_____________________________
JASON C. UNDERWOOD,
)
)
Petitioner-Appellant,
)
)
v.
)
)
SHAWN PHILLIPS, Warden, )
)
Respondent-Appellee.
)
_____________________________ )
ORDER
Jason C. Underwood, a Tennessee state prisoner,
moves through counsel for a certificate of appealability
to appeal a district court judgment denying his petition
for a writ of habeas corpus, filed pursuant to 28 U.S.C.
§ 2254.
In 2006, a jury convicted Underwood of two counts
of first-degree murder, and he was sentenced to two life
sentences without parole. His conviction was upheld on
direct appeal in the state courts, and his postconviction action was also unsuccessful.

App. 2
According to the state court’s opinion on direct
appeal, Underwood was convicted of stabbing two
victims to death, each victim sustaining forty to sixty
wounds. Underwood’s fingerprint was found in blood on
the inside doorknob of the victims’ house, and his
bloody handprint was found on the leg of the female
victim. His DNA was also found at the scene. The
victims’ truck was stolen and abandoned in
Underwood’s neighborhood. Following the
identification of his fingerprint, Underwood was
arrested and confessed to the crimes.
In this petition for federal habeas corpus relief,
Underwood raised numerous claims of ineffective
assistance of counsel and several claims of error by the
trial court. The district court denied the petition.
To be entitled to a certificate of appealability on
claims decided by the district court on the merits,
Underwood must show that reasonable jurists would
find the district court’s assessment of the constitutional
claims debatable. See Slack v. McDaniel, 529 U.S. 473,
484 (2000). Where a claim was dismissed on a
procedural ground, Underwood must show that jurists
of reason would find it debatable whether the petition
stated a valid claim of the denial of a constitutional
right and whether the district court was correct in its
procedural ruling. Id.
Underwood raised numerous claims of ineffective
assistance of counsel. To support such a claim, he was
required to show that counsel’s performance was
deficient and the result of the trial was prejudiced. See
Strickland v. Washington, 466 U.S. 668, 687 (1984).
Most of the claims of ineffective assistance of counsel

App. 3
were never raised in the state courts and were
therefore procedurally defaulted. See Coleman v.
Thompson, 501 U.S. 722, 750 (1991). However, because
Underwood claimed that ineffective assistance of postconviction counsel constituted cause for the default, the
district court examined the claims to determine if they
could be addressed under Martinez v. Ryan, 566 U.S. 1
(2012). The district court found that, on the whole, the
claims were meritless and without factual support and
therefore could not be the basis for habeas corpus
relief. Id. at 15-16.
For example, Underwood argued that counsel
should have called a witness who would have testified
that another man confessed the murders to him.
However, he presented no evidence that this witness
was available at trial nor any statement from him
indicating what his testimony would have been.
Underwood also argued that counsel was ineffective in
failing to challenge the withholding of exculpatory
evidence by the prosecution. This claim was
unsupported by any evidence of such exculpatory
material or any indication that counsel would have
been aware of it. Underwood argued that counsel was
ineffective in failing to present an expert in blood
spatter evidence to show that he could not have
murdered the victims alone. At best, such an expert
could have shown that another person was involved in
the murders and would not have been exculpatory to
Underwood. Also, Underwood argued that counsel
should have objected to the admission of prior bad acts,
but he pointed to no occasion in the record where prior
bad acts were admitted. Underwood raised a claim that
counsel was ineffective for failing to object when the

App. 4
trial court dismissed appointed counsel after his family
hired retained counsel, claiming that he intended to
have two attorneys at trial. However, he made no
showing that the result of the trial would have been
different if he had proceeded with both appointed and
retained counsel.
Underwood also raised several arguments that
counsel should have objected in circumstances where
the record showed that an objection was made. For
example, Underwood claimed that counsel was
ineffective in failing to challenge the admission of his
confession, where such a challenge was raised, and that
counsel should have requested an instruction on
facilitation of murder, where counsel did request such
an instruction. Because all of the above claims were
without factual support and meritless, jurists of reason
would not find it debatable whether the district court
was correct in concluding that their procedural default
could not be excused under Martinez.
Underwood also argued that counsel was ineffective
in failing to challenge the admission of another
statement that he gave to the prosecutor after his
initial confession. This claim was not presented to the
trial court in the post-conviction proceeding, but raised
on appeal only, and therefore procedurally defaulted.
Reasonable jurists would agree that the default could
not be excused on the basis of ineffective assistance of
counsel. Because Underwood’s original confession had
already been admitted, no prejudice resulted from the
admission of the second statement. Underwood also
argued that counsel was ineffective in allowing him to
make the second statement without seeking immunity

App. 5
because it was part of plea bargaining. Reasonable
jurists would not debate the district court’s conclusion
that the state court’s rejection of this claim was not
contrary to clearly established federal law because the
statement was not clearly part of plea bargaining and
it was not prejudicial in light of the other
overwhelming evidence of Underwood’s guilt.
Underwood also raised three claims of alleged trial
court error. First, he challenged the dismissal of his
appointed counsel when his family hired retained
counsel. Reasonable jurists would not debate the
district court’s conclusion that this claim was
procedurally defaulted when no objection was raised at
trial. Underwood argued that the trial court should
have granted a continuance on the fifth occasion that
he requested one. Reasonable jurists would not debate
the district court’s conclusion that the state court’s
rejection of this claim was not contrary to clearly
established federal law because Underwood failed to
show that the denial of the final motion for a
continuance resulted in any prejudice. See Burton v.
Renico, 391 F.3d 764, 772 (6th Cir. 2004). Finally,
Underwood argued that the trial court should have
granted more funds to hire experts in mitigation,
psychiatry, and DNA evidence. The state courts found
that the court had twice granted $5000 for an
investigator who could have been used to explore
mitigation evidence, that Underwood was examined by
psychiatrists who could have been called to testify, and
that no showing of the need for a DNA expert was
made. An alleged abuse of discretion by the trial court
judge in this regard does not rise to the level of a
constitutional violation. See Stanford v. Parker, 266

App. 6
F.3d 442, 459 (6th Cir. 2001). Moreover, Underwood
did not show that the state courts’ rejection of this
claim was contrary to clearly established Supreme
Court precedent. See Schriro v. Landrigan, 550 U.S.
465, 473 (2007).
For all of the above reasons, jurists of reason would
not find the district court’s assessment of the
constitutional claims debatable, or find it debatable
whether this petition stated a valid claim of the denial
of a constitutional right and whether the district court
was correct in its procedural rulings. Accordingly, the
motion for a certificate of appealability is DENIED.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 7

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
No.: 1:15-CV-331-HSM-SKL
[Filed March 19, 2019]
__________________________
JASON C. UNDERWOOD, )
)
Petitioner,
)
)
v.
)
)
CHERRY LINDAMOOD,
)
)
Respondent.
)
__________________________ )
MEMORANDUM OPINION AND ORDER
Petitioner Jason C. Underwood, a Tennessee inmate
proceeding pro se, has filed a federal habeas petition
pursuant to 28 U.S.C. § 2254 challenging the
constitutionality of his confinement under his 2006
Bedford County Circuit Court judgments of conviction
for theft and two counts of first-degree premeditated
murder, and his resulting life sentences without parole.
Having considered the submissions of the parties, the
State-court record, and the law applicable to

App. 8
Underwood’s claims, the Court finds that the petition
should be denied.
I.
SUMMARY OF EVIDENCE
& PROCEDURAL HISTORY
The bodies of Anthony Baltimore (“Baltimore”) and
his live-in girlfriend, Rebecca Ray (“Ray”), were
discovered in the morning hours of Monday, October
25, 2004, inside of their residence on Simms Road in
Shelbyville, Tennessee, by Baltimore’s father, Anthony
Wayne Baltimore (“Baltimore Senior”) and his sister,
Hope Shafer [Doc. 30-11 p. 40-45, 67-70]. The bodies of
both victims bore multiple stab wounds, and blood was
found throughout the residence [See, e.g., id. at 100101].
At Underwood’s trial, Baltimore Senior testified
that he had purchased a 1993 GMC pickup for $3,000
for his son a few months before he was killed [Doc. 3011 at 58]. Baltimore Senior stated he had last seen his
son and Ray alive the Saturday evening prior to their
deaths [Id. at 62]. He claimed that he drove by his son’s
home the following day (Sunday) but did not see
Baltimore’s truck, so he assumed that he was not home
[Id. at 66].
Hope Shafer testified that on Monday, October 25,
2004, she and Baltimore Senior went to Baltimore’s
residence on Simms Road, where she noticed the back
door slightly open and Baltimore’s truck missing [Id. at
40-43]. At approximately 8:16 a.m., Shafer pushed the
back door open and screamed when she saw her
brother’s body lying on the floor [Id. at 43-44]. Upon

App. 9
hearing Shafer’s distress, Baltimore Senior entered the
residence, touched Baltimore’s body, and told Shafer
that it was cold [Id. at 45]. Shafer and Baltimore
Senior drove to a store to call 911, and then Baltimore
Senior returned to the house on Simms Road, while
Shafer remained at the store [Id. at 46-47].
Detective Sergeant Jason Williams of the Criminal
Investigations Division (“CID”) testified that he and
Lieutenant Pat Mathis were dispatched to the crime
scene and performed a “visual scan” of the area when
they arrived, noticing no sign of forced entry to the door
and the presence of blood “just everywhere” [Id. at 96100]. The victims’ bodies were found in transition areas
to the den [Id. at 100-101]. Baltimore was wearing only
blue jeans and socks [Id. at 100]. Ray was wearing only
a t-shirt [Id. at 101]. Williams noticed several shoe
prints in dried blood that appeared to be from the same
shoe sole [Id. at 102-03]. During this scan, Williams
also noticed an aerosol can in a bedroom that appeared
to have blood on it [Id. at 116-17]. After conducting this
initial sweep, the officers requested assistance from the
Tennessee Bureau of Investigation (“TBI”) [Id. at 118].
An investigation unit with the TBI arrived at
approximately 12:07 p.m. and began collecting evidence
[Id. at 120-21]. TBI Special Agent Forensic Scientist
Steve Scott noticed a hair and a bloody fingerprint on
the interior doorknob of the back door [Doc. 30-12 p. 9596]. Agents also observed a finger or handprint in blood
on Ray’s leg [Id. at 110]. TBI collected, among other
items, the bloody doorknob and a condom lying close to
Ray’s body [Id. at 95-96, 100].

App. 10
On the morning the victims’ bodies were found, a
towing company was contacted to remove an
abandoned vehicle from the parking lot of Corsicana
Bedding, a Shelbyville business [Id. at 12-13]. When
the tow-truck driver arrived, he saw a gold-colored
pickup that appeared to have bloodstains in its interior
[Id. at 13, 16]. Having heard a “Be on the Lookout”
(“BOLO”) for a similar vehicle earlier in the day, the
tow-truck driver called the police department and
reported his discovery [Id. at 16-18]. Lieutenant
Mathis, Detective Lori Mallard, and Major Jan Phillips
left the crime scene at Simms Road to examine the
pickup truck [Doc. 30-11 p. 121]. After arriving at
Corsicana Bedding, Lieutenant Mathis observed blood
stains on the interior and exterior of the truck, as well
as on the gravel just outside of the driver’s door on the
truck [Doc. 30-12 p. 35-36]. After the vehicle was
photographed, Mathis arranged for the pickup to be
towed to a secure location where the TBI would process
it the following day [Id. at 36-44, 112-13]. Mathis also
collected some of the bloodstained gravel, which was
submitted for DNA analysis [Id. at 51].
During the investigation of the case, a truck driver
told officers that he saw someone park the stolen
pickup at Corsicana Bedding at around 8:00 a.m. and
then flee the vehicle [Doc. 30-15 p. 82-83]. After
learning of this information, Officer Mathis contacted
Ranger Shane Petty, an employee of the Tennessee
State Park Service who handled bloodhounds proficient
in human trafficking [Doc. 30-12 p. 44-45; Doc. 30-14 p.
60-61]. Petty arrived with his bloodhound on October
26, 2004, and Mathis gave Petty the floormat of the
pickup, which the bloodhound used to “get a scent”

App. 11
[Doc. 30-12 p. 44-45; Doc. 30-14 p. 67]. The pair went to
Corsicana Bedding, where the bloodhound alerted and
tracked the scent through a creek bed to the back of a
neighborhood approximately 100 yards from a house
that was later identified as the residence of
Underwood’s grandmother [Doc. 30-12 p. 45-46; Doc.
30-14 p. 70-74]. Underwood lived in a house across the
street [Doc. 30-12 p. 48]. The distance from where the
truck was abandoned to Underwood’s residence was
approximately three-tenths of a mile [Id. at 52].
No suspects were identified from the initial
investigation of the crime scene [Doc. 30-11 at 126]. As
persons were interviewed, Detective Williams learned
that the victims were both involved in drugs, and that
they had “stiffed” people in drug transactions [Id. at
140-143]. At trial, Hope Shafer admitted that she knew
Baltimore and Ray used marijuana, and she stated
that while she had heard Baltimore had used cocaine,
she did not know that to be a fact [Id. at 50]. Shafer
also stated that Baltimore worked for a roofing
company and was physically strong, while Ray would
often “get physical” with both men and women and
“didn’t back down from anybody [Id. at 51-52].
During his investigation, Lieutenant Mathis
learned that the victims might have purchased drugs
from an individual named “OD” and/or a man named
Greg Marlin [Doc. 30-12 at 61-62]. OD’s house was also
three-tenths of a mile from the location where
Baltimore’s truck was abandoned [Id. at 63-64]. Mathis
also learned that three beer cans found in the Simms
Road residence had DNA that matched that of a man
named Charles Oldfield [Id. at 67]. Mathis interviewed

App. 12
Oldfield, who stated that he had been drinking beer
and “smoking dope” with the victims on the Thursday
or Friday before the murders [Id.]. Mathis testified that
an individual named Brent Sadler was at the residence
with Oldfield at the time, and that Sadler was also
interviewed [Id. at 67]. After these interviews, Mathis
concluded that other witnesses had seen the victims
alive after the night that Oldfield and Sadler visited
the Simms Road residence [Id. at 67-68].
Officer Wilkerson testified that, after the murders,
he conducted door-to-door interviews near the area
where Baltimore’s pickup was located [Doc. 30-14 at
34]. As part of this canvassing, he visited Underwood’s
home on November 1, 2004, and asked to see
Underwood’s hands, noticing a “knick” on one of
Underwood’s index fingers [Id. at 36-41, 50]. Wilkerson
stated that Underwood stated he had no knowledge of
the murders, and that while Underwood acted nervous
during the conversation, it did not raise any suspicion,
because everyone Wilkerson spoke to that day seemed
alarmed [Id. at 36-41].
Law enforcement got a break in the case on
November 10, 2004, when Darrin Shockey, a forensic
scientist for the TBI specializing in latent print
examination, notified the Shelbyville Police
Department that the fingerprint from the doorknob
matched Underwood’s [Doc. 30-13 p. 180-81]. Once
investigators learned of the match, they obtained three
warrants for Underwood: two for first-degree murder
and one for theft [Doc. 30-14 p. 110]. Officer Wilkerson
and Detective Mathis attempted to execute the
warrants on November 10, 2004, but when Underwood

App. 13
saw Detective Mathis with handcuffs, he fled, literally
running out of his shoes and leaving them behind to be
collected by officers [Doc. 30-14 p. 92-98; see also Doc.
30-12 p. 48-50]. Underwood was pursued to Bedford
Manor Apartments and was eventually found hiding in
a residence, where he surrendered and was taken into
custody [Doc. 30-14 p. 98-101]. Following Underwood’s
arrest, his palm print was taken for analysis and
submitted to the TBI [Doc. 30-12 p. 56].
Darrin Shockey testified that he also matched three
fingerprints from a coffee mug found on the living room
table at the crime scene to Underwood [Doc. 30-13 p.
176-77]. He stated that he used detailed photos of a
hand print preserved in blood on Ray’s left calf and
compared it with Underwood’s latent palm print,
concluding that Underwood’s palm “100 percent,
without a doubt” had touched Ray’s calf [Doc. 30-13 p.
183; Doc. 30-14 p. 29]. Shockey conceded that this
investigation was the first time he had been able to
analyze latent fingerprints preserved in blood from a
human body [Doc. 30-14 p. 12]. Shockey stated he was
unable to match the latent prints on the abandoned
pickup to either the victims or Underwood [Doc. 30-13
p. 170].
Medical examiner, Dr. Amy R. McMaster,
performed the autopsies of the victims [Doc. 30-15 p.
90, 95]. Baltimore suffered 41 stab and incised wounds
to his body, the deepest of which was a five-inch stab
wound to his back [Id. at 101-02]. Dr. McMaster
testified that none of Baltimore’s injuries would have
immediately incapacitated him, and that it would have
taken “a few minutes” for Baltimore to die from the

App. 14
blood loss [Id. at 108]. She testified that Baltimore did
not appear to have any defensive wounds [Id. at 109].
Dr. McMaster stated that the wounds inflicted
exceeded those necessary to cause Baltimore’s death,
and that he would have had some period of suffering
before he lost consciousness from blood loss [Id. at 11314]. She also stated that Baltimore had two substances
in his blood that were cocaine metabolites, indicating
he had used cocaine recently before his death [Id. at
111-12].
Dr. McMaster stated that Ray had suffered 59 stab
and incised wounds to her head, neck, torso, and
extremities, along with multiple superficial wounds,
contusions, and abrasions [Id. at 117]. She testified
that one of Ray’s stab wounds entered her ear canal,
and the deepest wound was an approximate four-inch
wound to her chest/abdomen region [Id. at 119]. Dr.
McMaster stated that none of Ray’s injuries would
have immediately incapacitated her, and her body bore
defensive wounds, suggesting that she was conscious
and suffered prior to her death [Id. at 129-130]. Dr.
McMaster opined the wounds inflicted to Ray were
more than those necessary to cause her death [Id. at
131]. Toxicology performed on Ray showed that she had
ingested cocaine within an hour of her death, and it
also demonstrated the presence of marijuana and
cocaine metabolites [Id. at 127]. Dr. McMaster also
performed a rape kit on Ray’s body and turned it over
to the TBI for analysis [Id. at 125-26].
Testing of the rape-kit samples revealed the victims’
DNA on oral, vaginal, and anal swabs, while there was
a third contributor’s DNA in the anal swab [Doc. 30-13

App. 15
p. 92-93]. Underwood could not be excluded as a
contributor of the DNA recovered from the anal swab
[Id. at 93-94, 101-02]. Testing of the condom recovered
from the scene did not reveal the presence of any
spermatozoa or semen [Id. at 91]. Blood samples from
Baltimore’s pickup were also tested, and the blood
DNA profile from inside the driver’s side door matched
Underwood [Id. at 96]. The victims’ blood was found on
the floor mat and on the stained gravel that was
recovered from the location of the pickup [Id. at 97-98].
No knives found at the crime scene were tested for
DNA [Id. at 120-21]. The murder weapon was never
identified [Doc. 30-15 p. 62-63].
Following his arrest, Underwood was taken to the
police station and placed in an interview room, where
Detective Williams and Detective Brian Crews of the
Shelbyville Police Department interviewed him at
approximately 11:20 a.m. on November 10, 2004 [Doc.
30-14 p. 116-17]. Williams testified that the officers
identified themselves, stated the purpose of the
interview, and informed Underwood of his Miranda
rights1 [Id. at 117-119]. Williams testified that
Underwood appeared to understand his rights and did
not appear to be under the influence of any intoxicant
[Id. at 119-20]. Underwood agreed to speak with the
officers, and the interview was video recorded and

1

These are the well-known warnings, such as the right to remain
silent, that must accompany a custodial interrogation. See
Miranda v. Arizona, 384 U.S. 436, 444 (1966).

App. 16
audio recorded [Id. at 121].2 Williams testified that
Underwood requested another meeting where he gave
another videotaped statement on February 25, 2005, in
the presence of Williams, Underwood’s defense
attorney, and Assistant District Attorney (“ADA”) Mike
Randles [Id. at 127-28].3
Underwood’s November 10 interview was
introduced into evidence at trial, in which Underwood
initially denied being at the victims’ house and stated
he did not know them well.4 Underwood I, 2008 WL
5169573, at *10. After he was confronted with the fact
that his fingerprint was found on the doorknob,
Underwood admitted that he had been dropped off at
the residence by a friend named Kevin and saw the
victims laying badly wounded on the floor. Id.
Underwood gave a third version of events in the same
interview, in which he stated that he was using drugs
with the victims when the victims attacked him —
Baltimore with a Crown Royal bottle and Ray with a
pipe — and that he stabbed them each a couple of
times in the ensuing fight. Id.
Sergeant Williams stated that at the time of the
November 10 interview, Underwood had an injury

2

No transcript from the November 10, 2004, is in the record
provided to the Court.

3

No transcript from the February 25, 2005, interview is in the
record provided to the Court.

4

While the facts in this paragraph are taken from the State court’s
opinion, the Court notes that these facts are repeated by the State
in closing argument, which is in the record [Doc. 30-16 p. 40-65].

App. 17
behind his ear, on the knuckle of his right index finger,
and another on the joint near his thumb [Doc. 30-15 p.
40-43]. Underwood stated that he received the scratch
on his thumb joint while fleeing from police while
attempting to evade arrest [Id. at 41]. Williams stated
that Underwood had a scratch above his left elbow that
Underwood believed was from the altercation at Simms
Road [Id. at 43]. On cross-examination, Williams
acknowledged that some of Underwood’s statements
were untruthful, as, for example, there was no Crown
Royal bottle or pipe found at the crime scene with
which he could have been attacked [Id. at 55]. Williams
also stated Underwood purported to be wearing the
same shoes and pants at the interview that he was
wearing the night of the murders, but Williams
acknowledged that the pants and shoes had later tested
negative for blood [Doc. 30-15 at 62; see also Doc. 30-13
p. 121-22].
Underwood did not testify at trial [See, e.g., Doc. 3015 p. 151-54]. In Underwood’s defense, his optometrist
testified that he had 20/150 vision, meaning “what you
can stand back and see at 150 feet, he would need to be
20 feet to see the same size” [Doc. 30-15 p. 164-65].
Underwood’s second cousin, Terrance Lee Scott Smith,
testified that he saw both victims on October 23, 2004,
at the residence of Underwood’s grandmother, and that
he met Baltimore’s truck on the road at around 1:45
a.m. as he was returning to the residence [Doc. 30-16 p.
15-17]. When he returned, Smith testified, neither
Underwood nor the victims were at the residence [Id.
at 17]. Brandy Nicole Clark, who resided in the Bedford
Manor Apartments building where Underwood was
ultimately arrested, testified that she voluntarily let

App. 18
him in her apartment on the day of his arrest [Id. at
20-21]. Lisa John Hillis, who lived next door to the
victims’ residence, testified that around 2:45 a.m. on
Sunday, October 24, 2004, she heard what sounded like
a four-wheeler coming through her backyard [Id. at 2223]. She testified that at approximately 3:00 a.m., it
“fired back up and raced off” [Id. at 24]. She stated that
it had happened every night since she moved next door
to the victims’ residence in June 2004 [Id.]. After
October 24, 2004, however, she never heard it again
[Id.]. She also stated that around dinnertime on
October 24, 2004, she saw a beaten-up “deep wine
colored” Dodge Caravan pull up to the victims’ home
and saw a white male with medium build and
“blondish-brownish” hair beating on the front door [Id.
at 25-26]. Hillis stated the man returned to the van and
left when no one answered the door [Id.]. She saw the
same van seven or eight times the next day while law
enforcement was working at the scene [Id. at 26].
Following a five-day jury trial, the jury found
Underwood guilty of all counts and unanimously
sentenced him to imprisonment for life without the
possibility of parole on both counts of first-degree
murder [Doc. 30-16 p. 120-21, 160-62].5 The trial court
ordered the sentences to run consecutively [Doc. 30-17
p. 22].

5

The State sought the enhanced punishment of imprisonment for
life without the possibility of parole, citing that the murder was
“especially heinous, atrocious or cruel in that it involved torture or
serious physical abuse beyond that necessary to produce death”
[Doc. 30-1 p. 112].

App. 19
After his motion for a new trial was denied,
Underwood appealed his convictions and sentences [Id.
at 52-55]. On December 10, 2008, the Tennessee Court
of Criminal Appeals affirmed. State v. Underwood, No,
M2006-01826-CCA-R3-CD, 2008 WL 5169573, at *1
(Tenn. Crim. App. Dec. 10, 2008) (“Underwood I”).
Underwood did not seek permission to appeal that
decision.
Underwood then filed a pro se petition for State
habeas relief that was dismissed on July 30, 2008 [See
Doc. 30-24 p. 35-36]. On December 9, 2009, Underwood
filed a pro se petition for post-conviction relief in State
court [Doc. 30-25 p. 4-19]. Counsel was appointed to
assist Underwood on December 21, 2009, and privately
retained counsel Russell Leonard was thereafter
substituted on May 17, 2010 [Id. at 22, 28, 35]. Newlyretained counsel filed a writ of error coram nobis on
July 23, 2010, and an amended petition for postconviction relief on July 26, 2010 [Id. at 51-75]. An
evidentiary hearing was held on the motions, along
with a motion for DNA analysis, on September 24, 2010
and November 15, 2010 [See, e.g., id. at 91].
At the evidentiary hearing, Underwood’s initial
counsel, Fannie Harris, testified that she was a
criminal defense attorney whose firm was briefly
retained to represent Underwood, and that she met
with her client, police officers, and the ADA on
February 25, 2005, where Underwood gave a statement
to officers [Doc. 30-26 p. 6]. She stated that she did not

App. 20
invoke the protections of Rule 116 prior to that meeting,
which would have protected the statements as
confidential statements made during plea negotiations,
and that she did not ask that Underwood receive
immunity or protections from any statement he gave
[Id. at 7]. Harris eventually withdrew as counsel after
Underwood’s mother filed a complaint against her with
the Board of Professional Responsibility (“BPR”) [Id. at
8]. Harris acknowledged that the BPR had censured
her after she incorrectly responded to the complaint
that she had not allowed Underwood to give an
interview with the ADA on February 25, 2009, but she
maintained that she had never seen the tape of the
interview and believed at the time she responded to the
complaint that the interview had not occurred [Id. at 910]. Harris testified that she received the State’s
discovery at the conclusion of the interview, conceding
that she had not seen it prior to setting up the meeting
[Id. at 17, 22]. Harris stated that she gave all discovery
in the case to her investigator, who had never returned
it but who had proven “diligent” in working with other
attorneys in the law firm [Id. at 9-10].
Harris testified that she had known Underwood
prior to this crime, and that she agreed to set up a
meeting with Underwood, the police, and the ADA,
where Underwood could tell the truth about what had
happened the night of the murders [Id. at 17, 23]. She
stated that she believed Underwood’s steadfast

6

The Tennessee Rules of Evidence provide that statements made
by a party in the course of proceedings under Rule 11 of the
Tennessee Rules of Criminal Procedure are generally not
admissible against that party. See Tenn. R. Evid. 410.

App. 21
declaration of innocence that he had only confessed out
of fear, and that he wanted to tell the police who
committed the murders [Id. at 18-19]. While testifying,
Harris recalled that she did attempt to request Rule 11
protections prior to the meeting, but that the ADA
refused to offer any protections [Id. at 19]. Harris
stated that, eventually, an understanding was reached
that Underwood would tell the truth, the ADA would
investigate it and see if he could corroborate it, and
perhaps the information would help Underwood when
they reached the stage of plea negotiations [Id. at 2022]. Harris testified that she would not have set up the
meeting if she had thought that Underwood was going
to make incriminating statements [Id. at 27-28].
Pre-trial counsel, Hershell Koger, represented
Underwood after Harris withdrew. [See id. at 50].
Koger testified that he remembered watching the
February 25, 2005, video of Underwood’s meeting and
seeing the State hand over the initial discovery at the
end of the meeting [Id. at 61]. He filed a motion to
suppress Underwood’s statement from the interview,
recalling that one of the bases was ineffective
assistance of counsel, as Harris had scheduled the
interview before receiving discovery from the District
Attorney’s office [Id. at 62]. He stated it was “almost
always a bad idea” to let a defendant talk to the
District Attorney [Id. at 63]. Koger stated that there
was some “clever defense thinking” on the part of trial
counsel for deciding not to pursue the motion to
suppress the February 25 statement, although he could
not recall what the strategy was [Id. at 70-71].

App. 22
Trial counsel, Robert Marlow, testified that he did
not pursue the motion to suppress the February 25
statement because it would have raised an issue of
ineffective assistance of counsel, which is generally
improper to raise during trial or on direct appeal [Id. at
109-10]. Marlow stated that during the February 25
interview, Underwood claimed to have been present at
the scene with other participants but denied touching
Ray’s body [Id. at 134-36]. Marlow stated that
Underwood claimed that he had no open wounds and
could not have left his blood at the scene, conceding
that there were “major inconsistencies” between
Underwood’s statements during the February 25
interview and the scientific evidence [Id.]. Marlow
maintained that it would have been ineffective not to
try to have the February 25 conversation covered under
Rule 11 but admitted he had never asked the ADA to
consider an interview with a defendant under Rule 11
[Id. at 142-43].
Following Marlow’s testimony, the post-conviction
hearing was continued to November 15, 2010.
Underwood testified on that date [Id. at 162]. He stated
that he had been wrongfully convicted, and that others
were responsible for the murders [Id. at 163-170]. He
stated he did not testify at trial because his family was
threatened by the actual perpetrators of the crime [Id.
at 171-72]. He offered no testimony relevant to his
ineffective assistance of counsel claims.
Following the hearing, the trial court orally denied
the writ of error coram nobis, the motion for DNA
analysis, and the petition for post-conviction relief [Id.
at 193-195]. On January 14, 2011, the post-conviction

App. 23
court entered a written order containing factual
findings to support the denials [Doc. 30-25 p. 91-100].
On January 27, 2014, three years after the postconviction court entered its order denying relief,
Underwood moved to file an untimely appeal that was
later accepted [Doc. 30-27]. On June 5, 2015, the
Tennessee Court of Criminal Appeals affirmed the
post-conviction court’s denial of relief. Underwood v.
State, No. M2014-00159-CCA-R3-PC, 2015 WL
3533718, at *2 (Tenn. Crim. App. June 5, 2015), perm.
app. denied (Tenn. Sept. 17, 2015) (“Underwood II”).
On September 17, 2015, the Tennessee Supreme Court
denied Underwood’s application for permission to
appeal. Id.
On December 7, 2015, Underwood filed a pro se
petition for federal habeas relief that this Court
subsequently ordered Underwood to amend [Docs. 1 &
6]. Underwood filed his amended petition on or about
February 16, 2016, raising the following grounds for
relief, as paraphrased by the Court:
Claim 1:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
(a) subpoena and present
exculpatory witnesses, and
(b) debunk and rebut the
prosecutor’s theory.

Claim 2:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
(1) challenge the State’s

App. 24
suppression of evidence, and
(b) diligently investigate the
State’s Brady violation.
Claim 3:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
(a) properly obtain crime scene
evidence experts, and (b) utilize
and develop exculpatory expert
evidence regarding the blood
splatter.

Claim 4:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
properly obtain an expert to
challenge the voluntariness and
admissibility of Underwood’s
confessions.

Claim 5:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to put
on adequate supporting
evidence and argue that
Underwood was entitled to
lesser-included offense
instructions.

Claim 6:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
properly argue that the

App. 25
evidence was insufficient to
establish first-degree murder.
Claim 7:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to put
on adequate supporting
evidence and argue that the
admission of prior bad acts
violated Underwood’s due
process rights.

Claim 8:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
properly challenge the
admissibility of Underwood’s
incriminating statements.

Claims 9-10:

The trial court erred in
“dismissing” appointed counsel,
Hershell Koger, instead of
having him assist the counsel
retained by Underwood’s
family.

Claims 11-12:

Pre-trial
counsel, Fannie
Harris, rendered ineffective
assistance of counsel when she
failed to provide adequate
protections to Underwood
during his February 25, 2005,
interview with the Assistant
District Attorney.

App. 26
Claim 13:

Trial counsel, Robert Marlow,
rendered ineffective assistance
of counsel when he failed to
properly challenge the court’s
“disqualification” of Counsel
Koger and the failure to appoint
counsel.

Claims 14-15:

The trial court erred in denying
Underwood’s request for a
continuance.

Claims 16-17:

The trial court erred in denying
Underwood’s request for funds
to hire expert witnesses.

Thereafter, the Court ordered Respondent to file a
response to the petition, and Respondent complied by
filing an answer on September 12, 2016 [Doc. 27].
II.
LEGAL STANDARD
The Court’s review of the instant petition is
governed by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), which prevents the
grant of federal habeas relief on any claim adjudicated
on the merits in state court unless that adjudication
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established United States Supreme Court precedent; or
(2) resulted in a decision based on an unreasonable
determination of facts in light of the evidence
presented. See 28 U.S.C. § 2254(d)(1) & (2); Schriro v.
Landrigan, 550 U.S. 465, 473 (2007).

App. 27
Federal habeas relief may be granted under the
“contrary to” clause where the state court (1) arrives at
a conclusion opposite that reached by the Supreme
Court on a question of law; or (2) decides a case
differently than the Supreme Court on a set of
materially indistinguishable facts. See Williams v.
Taylor, 529 U.S. 362, 405-06 (2000). Under the
“unreasonable application” clause, a federal court may
grant relief where the state court applies the correct
legal principle to the facts in an unreasonable manner.
See id. at 407-08; Brown v. Payton, 544 U.S. 133, 141
(2005). Whether a decision is “unreasonable” is an
objective inquiry; it does not turn on whether the
decision is merely incorrect. See Schriro, 550 U.S. at
473 (“The question under AEDPA is not whether a
federal court believes the state court’s determination
was incorrect but whether that determination was
unreasonable – a substantially higher threshold.”);
Williams, 529 U.S. at 410-11. When evaluating the
evidence presented in state court, a federal habeas
court presumes the correctness of the state court’s
factual findings unless the petitioner rebuts the
presumption by clear and convincing evidence. See 28
U.S.C. § 2254(e)(1).
Federal habeas review is also limited by the
doctrine of procedural default. See O’Sullivan v.
Boerckel, 526 U.S. 838, 848 (1999) (holding prisoner’s
procedural default forfeits his federal habeas claim). A
procedural default exists in two circumstances:
(1) where the petitioner fails to exhaust all of his
available state remedies, and the state court to which
he would be required to litigate the matter would now
find the claims procedurally barred, and (2) where a

App. 28
state court clearly and expressly bases its dismissal of
a claim on a state procedural rule, and that rule
provides an independent and adequate basis for the
dismissal. See, e.g., Coleman v. Thompson, 501 U.S.
722, 731-32, 735 n.1 (1991). A procedural default may
be circumvented, allowing federal habeas review of the
claim, where the prisoner can show cause for the
default and actual resulting prejudice, or that a failure
to address the merits of the claim would result in a
fundamental miscarriage of justice. Id. at 750; see also
Wainwright v. Sykes, 433 U.S. 72, 87, 90-91 (1977).
“Cause” is established where a petitioner can show
some objective external factor impeded defense
counsel’s ability to comply with the state’s procedural
rules. See id. at 753. The “prejudice” sufficient to
overcome a default must be actual, not merely possible.
See Maupin v. Smith, 785 F.2d 135, 139 (6th Cir. 1986)
(citations omitted); see also United States v. Frady, 456
U.S. 152, 170 (1982) (holding prejudice showing
requires petitioner to bear “the burden of showing, not
merely that errors [in the proceeding] created a
possibility of prejudice, but that they worked to his
actual and substantial disadvantage, infecting his
entire [proceeding] with error of constitutional
dimension”) (emphasis in original).
The ineffective assistance of counsel can serve as
“cause” for a defaulted claim. Coleman, 501 U.S. at 753.
For example, appellate counsel’s failure to raise a
meritorious claim of ineffectiveness by trial counsel
may render the claim procedurally defaulted. See
Edwards v. Carpenter, 529 U.S. 446, 451 (2000) (“[I]n
certain circumstances counsel’s ineffectiveness in
failing properly to preserve a claim for review in state

App. 29
court will suffice.”). However, for an ineffective
assistance of appellate counsel to serve as cause for a
default, that claim must itself have been exhausted in
the State courts before it is presented in federal
habeas. See id. at 453 (“[A]n ineffective-assistance-of
counsel claim asserted as cause for the procedural
default of another claim can itself be procedurally
defaulted.”).
Generally, errors of post-conviction counsel cannot
serve as “cause” to excuse a procedural default.
Coleman, 501 U.S. at 752. An exception to this rule was
established in Martinez v. Ryan, which held that the
inadequate assistance of post-conviction counsel or the
absence of such counsel may establish cause for a
prisoner’s procedural default of an ineffective
assistance of trial counsel claim under certain
circumstances. Martinez v. Ryan, 566 U.S. 1,9 (2012).
The Supreme Court has described the Martinez
exception as containing the following requirements:
[The exception] allow[s] a federal habeas court to
find “cause,” thereby excusing a defendant’s
procedural default, where (1) the claim of
“ineffective assistance of trial counsel was a
“substantial” claim; (2) the “cause” consisted of
there being “no counsel” or only “ineffective”
counsel during the state collateral review
proceeding; (3) the state collateral review
proceeding was the “initial” review proceeding in
respect to the “ineffective-assistance-of-trialcounsel claim;” and (4) state law requires that
an “ineffective assistance of trial counsel [claim]

App. 30
... be raised in an initial-review collateral
proceeding.”
Trevino v. Thaler, 569 U.S. 413, 423 (2013) (citing
Martinez, 566 U.S. at 13-14, 16-17).
Therefore, when considering an ineffective
assistance of trial counsel claim under Martinez, a
petitioner must show the ineffectiveness of postconviction counsel and “the ‘substantial’ nature of his
underlying [ineffective assistance of trial counsel]
claims.” Woolbright v. Crews, 791 F.3d 628, 637 (6th
Cir. 2015). A substantial claim is one that “has some
merit.” Martinez, 566 U.S. at 14. Inversely, a claim is
insubstantial if it “does not have any merit or. . . is
wholly without factual support.” Id. at 15-16.
A determination of whether an ineffective
assistance of counsel claim is substantial requires a
federal court to examine the claim under the standards
set forth in Strickland v. Washington, 466 U.S. 668
(1984), which requires a habeas petitioner to satisfy a
conjunctive, two-prong test to warrant federal habeas
corpus relief: (1) he must demonstrate constitutionally
deficient performance by counsel, and (2) he must
demonstrate actual prejudice as a result of such
ineffective assistance. Strickland, 466 U.S. 668, 687
(1984). Deficiency is established when a petitioner can
demonstrate that counsel’s performance falls below an
objective standard of reasonableness as measured by
professional norms, such that counsel was not
functioning as the “counsel” guaranteed by the Sixth
Amendment. Id. at 687-88. This Court’s scrutiny is to
be highly deferential of counsel’s performance, with an
effort to “eliminate the distorting effects of hindsight.”

App. 31
Id. at 689. In fact, counsel is to be afforded a
presumption that his actions were the product of
“sound trial strategy” and undertaken with the exercise
of reasonable professional judgment. Strickland, 466
U.S. at 689.
Prejudice is established when the petitioner can
demonstrate to a reasonable probability that the result
of the proceedings would have been different but for the
challenged conduct, thereby undermining confidence in
the reliability of the outcome. Strickland, 466 U.S. at
687, 694. However, an error, even if professionally
unreasonable, does not warrant setting aside the
judgment if it had no effect on the judgment. Id. at 691.
While the Strickland standard governs eventual
review of the merits of an ineffective assistance of
counsel claim, the question of whether an ineffective
assistance of counsel claim is substantial is more akin
to a preliminary review of the Strickland claim to
determine whether a certificate of appealability should
issue. Martinez, 566 U.S. at 14-15. Therefore, a court
may conclude that the petitioner has raised a
substantial claim where the resolution of the claim
would be “debatable amongst jurists of reason,” or
where the issues presented are “adequate to deserve
encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327, 336 (2003). If the petitioner
can successfully demonstrate cause and prejudice of
post-conviction counsel under this preliminary review,
the final step is for the district court to evaluate the
underlying ineffective assistance of trial counsel claims
on the merits. Atkins v. Holloway, 792 F.3d 654,
659–60 (6th Cir. 2015).

App. 32
III.
CLAIMS 1-7 & 13
The claims asserted by Underwood in Claims 1-7
and 13 allege that he received the ineffective assistance
of counsel. In his post-conviction petition and
subsequent appeal, Underwood argued the ineffective
assistance of trial counsel. However, he argued the
claims on different grounds than those raised in Claims
1-7 and 13. These exact claims were never raised in
State court, and therefore, they are defaulted. See, e.g.,
Wong v. Money, 142 F.3d 313, 321-22 (6th Cir. 1998)
(finding ineffective assistance of counsel claim
procedurally defaulted where petitioner’s argument in
state court relied on different grounds than argument
on habeas appeal).
Underwood concedes that the ineffective assistance
of counsel claims raised in Claims 1-7 and Claim 13
have never been presented to the State courts, and that
there appears to be no avenue by which they may now
be exhausted in State court. Accordingly, these federal
claims are procedurally defaulted. See Atkins, 792 F.3d
at 657 (holding where “a petitioner fails to present a
claim in state court, but that remedy is no longer
available to him, the claim is technically exhausted, yet
procedurally defaulted”).
While Underwood stipulates that these claims have
never been presented in State court, he argues that
they may be reviewed by the exception created under
Martinez due to the ineffective assistance of postconviction counsel, Russell Leonard, in raising the
issues [See Doc. 9]. Respondent claims that Underwood
cannot avail himself of the Martinez exception to

App. 33
demonstrate “cause” for the default of these claims,
arguing that it is well-settled that ineffective
assistance of counsel during post-conviction appeal
does not constitute cause to overcome a procedural
default. See Martinez, 566 U.S. 1 at 16 (holding new
exception “does not concern attorney errors in other
kinds of proceedings, including appeals from initialreview collateral proceedings”).
The Court agrees that the claims raised by
Underwood in Claims 1-7, and to at least a partial
extent, Claim 137, have never been raised in any Statecourt proceeding. The Court finds, however, that since
Underwood is alleging that post-conviction counsel
failed to present these ineffective assistance claims
during post-conviction proceedings (the first
opportunity Underwood had to present such claims),
his claims should be analyzed pursuant to the Martinez
exception. See Sutton v. Carpenter, 745 F.3d 787, 79596 (6th Cir. 2014) (holding Martinez exception is
applicable in Tennessee because defendants are
directed to file ineffective assistance claims in postconviction rather than on direct appeal).
In considering Underwood’s claims, the Court notes
that because the issue of whether post-conviction
counsel rendered ineffective assistance is “necessarily
connected to the strength of the argument that trial
counsel’s assistance was ineffective,” it is, in this
instance, “more efficient for the reviewing court to

7

Post-conviction counsel, through an amended post-conviction
petition, raised an ineffective assistance of trial counsel claim
based Koger’s motion to withdraw [Doc. 30-25 p. 59-61].

App. 34
consider in the first instance whether the alleged
underlying ineffective assistance of counsel was
‘substantial’ enough to satisfy the ‘actual prejudice’
prong of Coleman.” Thorne v. Hollway, No. 3:14-CV0695, 2014 WL 4411680, at *23 (M.D. Tenn. Sept. 8,
2014), aff’d sub nom. Thorne v. Lester, 641 F. App’x 541
(6th Cir. 2016).
A. Claim 1
Underwood claims that trial counsel Marlow
rendered ineffective assistance of counsel in failing to
subpoena and present exculpatory witnesses to rebut
the prosecutor’s theory of the crime. Specifically, he
maintains that counsel should have demonstrated that
he had no motive to commit the murders while Greg
Marlin and his accomplices did have such motives [See
Doc. #9 p. 4-12]. He asserts that an individual named
Dameon Rushmire had informed both initial counsel
Fannie Harris and investigator Bobby Brown that Greg
Marlin had admitted to him that he committed the
murders, and that trial counsel should have called
Rushmire, Brown, and members of the District
Attorney’s Office and Shelbyville Police Department as
witnesses [Id. at 8].
The Court notes that no statement from Rushmire
is in the record, and that Fannie Harris testified at the
post-conviction hearing that she did not remember
interviewing Dameon Rushmire [Doc. #30-26 p. 4-5].
Donna Smith, Underwood’s mother, testified at the
post-conviction hearing that she was present at an
interview with Rushmire and Harris, and that she
informed trial counsel Marlow on how to contact
Rushmire [Id. at 31, 46]. She admitted, however, that

App. 35
her later attempts to locate Rushmire proved
unsuccessful [Id. at 47-48]. Marlow testified at the
hearing that he requested a tape of Harris’ interview
with Rushmire, but that it was never produced, and
that he was never able to verify that such a tape
existed [Id. at 113-14, 133]. He stated that both he and
his investigator attempted to locate Rushmire but were
unsuccessful in locating him or a member of his
immediate family [Id. at 114]. Marlow additionally
stated that Underwood refused to speak to him or his
investigator about his involvement in the crime, or that
of other potential suspects, including Greg Marlin [Id.
at 115-16].
Upon review of the record, the Court finds that
Underwood cannot establish deficiency by counsel for
failing to produce additional witnesses, as it is
apparent that counsel worked diligently with the
information he was provided, despite Underwood’s
reluctance to cooperate. On multiple occasions, trial
counsel questioned witnesses regarding Marlin and
OD, along with other presumably uninvestigated
potential suspects, to raise doubt as to Underwood’s
participation in the actual murders [See Doc. 30-11 p.
49-50, 140-41; Doc. 30-12 p. 61-62, 67; Doc. 30-14 p. 43;
Doc. 30-15 p. 46-48, 80-82].
Additionally, even if Rushmire, Marlin, and/or OD
were located and subpoenaed for trial, Underwood’s
DNA and fingerprints were found in blood at the crime
scene, and his DNA was found on the inside driver’s
side of the stolen vehicle [Doc. 30-13 p. 96]. Therefore,
the presence of another individual at the scene would
not have exonerated Underwood, and Underwood

App. 36
cannot demonstrate prejudice from counsel’s failure to
produce additional witnesses. Accordingly, no exception
exists under Martinez to rescue this claim from
procedural default, and it will be dismissed.
B. Claim 2
Underwood next asserts that trial counsel, Robert
Marlow, rendered ineffective assistance of counsel
when he failed to (1) cross-examine officers from the
Shelbyville Police Department and the ADA about
what Greg Marlin received in exchange for his
cooperation, and (2) move for a hearing regarding the
State’s failure to fulfill its duty to hand over all
exculpatory evidence, including its deals with Greg
Marlin [Doc. 9 p. 12-13].
There is no evidence of any cooperation by Marlin in
this case, or that the State was in possession of
exculpatory evidence, aside from Underwood’s
conclusory assertion of such. Further, there is no
evidence that further investigation would have yielded
such evidence. This allegation is wholly without factual
support. Therefore, it is an insubstantial claim of
ineffective assistance, and Underwood cannot rely on
Martinez to overcome the default. See Martinez, 566
U.S. at 16 (holding procedural default need not be
excused when the underlying claim is without merit or
any factual support); see also Elzy v. United States, 205
F.3d 882, 886 (6th Cir. 2000) (finding that a conclusory
statement is insufficient to raise an issue of ineffective
assistance of counsel); Hairston v. Barrett, No. 16-1590,
2017 WL 10399395, at *2 (6th Cir. 2017) (noting
conclusory assertions will not support ineffective

App. 37
assistance of counsel claim). This claim will be
dismissed.
C. Claim 3
Underwood asserts that trial counsel rendered
ineffective assistance of counsel in failing to obtain the
exculpatory witness testimony of crime scene
reconstructionist and blood spatter experts to prove the
physical impossibility of State witnesses’ testimony, as
he would have been incapable of overpowering two
victims without receiving substantial injuries himself
[Doc. 9 p. 14-15].
The Court notes that trial counsel did request
expert services in the trial court, and that the Supreme
Court denied the appeal of the motion [Doc. 30-2 p. 4851]. Moreover, as the Court has already noted, the
presence of a second attacker, even if proved, would not
have exculpated Underwood given the fingerprint and
DNA evidence. In short, this allegation is wholly
without factual support. Therefore, it is an
insubstantial claim of ineffective assistance, and
Underwood cannot rely on Martinez to rescue this
claim from default. See Martinez, 566 U.S. at 16. This
claim will be dismissed.
D. Claim 4
Underwood argues that trial counsel rendered
ineffective assistance of counsel in failing to obtain an
expert to challenge the voluntariness and admissibility
of his confessions, as he was wounded, medicated, and
intoxicated at the time he gave his initial, coerced
statement to the Shelbyville Police Department [Doc. 9
p. 17].

App. 38
As an initial matter, the Court notes that counsel
did move to suppress Underwood’s November 10, 2004,
statement to police on numerous grounds, including
that the statement was involuntary, the product of
coercion, given only after an involuntary waiver of
Underwood’s Miranda rights, and induced by
guarantees of leniency and improper references to
religion and morality [Doc. 30-2 p. 19]. The court
denied the motion, determining that the totality of the
circumstances demonstrates that Underwood
“voluntarily and knowingly waived his right against
self-incrimination and voluntarily gave the statements
given on the 11-10-04 videotape” [Id. at 29]. Further,
the matter was again raised in the motion for a new
trial [Id. at 124-25].
Moreover, there is no evidence before the Court to
suggest that Underwood was intoxicated and severely
wounded, and counsel did not perform deficiently, nor
did prejudice ensue, from counsel’s failure to raise a
claim wholly without factual support. Therefore, this is
an insubstantial claim of ineffective assistance, and
Underwood cannot rely on Martinez to overcome the
default. See Martinez, 566 U.S. at 16. This claim will be
dismissed.
E. Claim 5
Underwood claims that trial counsel rendered
ineffective assistance of counsel when he failed to put
on adequate supporting evidence to effectively argue
that Underwood was entitled to lesser-included offense
instructions regarding facilitation [Doc. 9 p. 22].

App. 39
Under Tennessee law, the offense of facilitation of
felony murder requires proof that:
1. a killing was committed in the perpetration of
one of the felonies specified by Tenn. Code Ann.
§ 39–13–202(a)(2) or (3);
2. the defendant knew that another person
intended to commit the underlying felony, but he
or she did not have the intent to promote or
assist the commission of the offense or to benefit
in the proceeds or results of the offense; and
3. the defendant furnished substantial
assistance to that person in the commission of
the felony; and
4. the defendant furnished such assistance
knowingly.
State v. Ely, 48 S.W. 3d 710, 719-720 (Tenn. 2001)
(citing Tenn. Code Ann. §§ 39–13–202, 39–11–403).
Underwood’s jury was instructed on the lesserincluded offenses of second-degree murder, voluntary
manslaughter, reckless homicide, and criminally
negligent homicide [Doc. 30-2 p. 96-105]. While the jury
was not instructed on facilitation to commit murder,
Marlow requested the court to consider such an
instruction, and the trial court found no evidence had
been offered to support such an instruction [Doc. 30-15
p. 146-147]. Specifically, the court noted that in his
first statement, Underwood did not mention another
participant [Id. at 147]. In the second statement,
Underwood stated that he did not witness any of the
crimes; he was merely told about it [Id.]. Therefore, an
instruction that Underwood was responsible for
facilitating the offense is not supported in the record,

App. 40
and counsel did not perform ineffectively in failing to
argue it. Accordingly, this claim is insubstantial and
Underwood cannot invoke the Martinez exception to
overcome its default. See Martinez, 566 U.S. at 16. It
will be dismissed.
F. Claim 6
Underwood asserts that trial counsel rendered
ineffective assistance of counsel when he failed to
properly argue that the evidence was insufficient to
establish first-degree murder, as the evidence of Greg
Marlin’s guilt that was introduced at trial would have
supported an instruction concerning third-party guilt
[Doc. 9 p. 19].
In Holmes v. South Carolina, the Supreme Court
approved of rules excluding evidence offered by
criminal defendants to show third-party guilt “where it
does not sufficiently connect the other person to the
crime, as, for example, where the evidence is
speculative or remote.” Holmes v. South Carolina, 547
U.S. 319, 327 (2006). As the Court has previously
noted, even if Marlin were a participant in these
murders, Underwood would not be absolved of guilt; his
fingerprints and DNA were found at the crime scene
and in the vehicle stolen from the scene. Nonetheless,
despite the fact of Underwood’s undisputable
involvement in the crimes, trial counsel repeatedly
questioned witnesses about the victims’ drug use and
the fact that known drug dealers lived near where the
truck was found to cast doubt on Underwood’s role as
the murderer [See, e.g., Doc. 30-12 p. 61-64].
Additionally, at closing, Marlow argued Underwood
was present at the time of the crimes, but that the

App. 41
absence of blood on his clothes or murder weapon
should give doubt to his involvement in the actual
murder [Doc. 30-16 p. 70-75]. Therefore, the Court
determines that Underwood has not demonstrated that
counsel was deficient, or that he was prejudiced, by
trial counsel’s failure to introduce an instruction
regarding third-party guilt. He cannot demonstrate
ineffectiveness by counsel, and accordingly, and he
cannot invoke the Martinez exception to overcome the
procedural default of this claim. See Martinez, 566 U.S.
at 16. This claim will be dismissed.
G. Claim 7
Underwood maintains that trial counsel rendered
ineffective assistance of counsel when he failed to put
on adequate supporting evidence and argue that the
admission of his prior arrests and allegations of his
crack dealing were irrelevant and highly prejudicial
[Doc. 9 p. 23]. Underwood does not cite to any portion
of the transcript indicating that any prior bad acts
were introduced, and if any such references were
introduced, it was during his voluntary statements that
were played as evidence to the jury. Accordingly, this
is a conclusory argument wholly without factual
support, and Martinez cannot vitiate the procedural
default of this claim. See Martinez, 566 U.S. at 16. This
claim is dismissed.
H. Claim 13
Underwood contends that trial counsel rendered
ineffective assistance of counsel when he failed to
object to the trial court’s “disqualification” of Koger and
request the appointment of co-counsel [Doc. 9 p. 32].

App. 42
The Court notes that post-conviction counsel,
through an amended post-conviction petition, raised an
ineffective assistance of trial counsel claim based on
Koger’s motion to withdraw. Therefore, to the extent
that this claim has been adjudicated on its merits,
Martinez is inapplicable. See Abdur’Rahman v.
Carpenter, 805 F.3d 710, 715 (6th Cir. 2015) (noting
Martinez inapplicable to claim that was not defaulted).
To the extent the claim was not raised, the Court finds
that Underwood has not demonstrated any deficient
performance by counsel or resulting prejudice, as his
argument that he would have prevailed at trial if he
had two attorneys is speculative and insufficient to
meet the Martinez test of substantiality. This claim is
dismissed.
IV.
CLAIM 8
In his eighth claim of error, Underwood claims that
he was denied the effective assistance of counsel when
his trial counsel, Robert Marlow, failed to properly
challenge the admissibility of Underwood’s
incriminating statements.
On post-conviction appeal, Underwood claimed that
his trial counsel rendered ineffective assistance for
failing to file a motion to suppress his incriminating
statements during his February 25, 2005, interview
[Doc. 30-27 p. 20]. This claim was not raised in
Underwood’s petition for post-conviction relief at the
trial level, and therefore, was not addressed by the trial
court in its order dismissing the petition. It was,
however, raised on appeal to the Tennessee Court of
Criminal Appeals, which found it to be waived for

App. 43
failure to raise the issue in during post-conviction
initial proceedings. Underwood II, 2015 WL 3533718,
at *7.
Where a State court declines to reach the merits of
a petitioner’s claims due to application of “an
independent and adequate state procedural rule,
federal habeas review of the claim is barred unless the
prisoner can demonstrate cause for the default and
actual prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of
justice.” Coleman, 501 U.S. at 750; Shahideh v. McKee,
488 F. App’x 963, 965 (6th Cir. 2012). In Tennessee, a
ground for relief is waived if it could have been, but
was not, raised in a prior proceeding. Tenn. Code Ann.
§ 40-30-106(g). Tennessee’s waiver rule is a regularly
followed State procedural rule that supplies an
independent and adequate State-law ground that bars
habeas review absent a demonstration of cause and
prejudice. Hutchinson v. Bell, 303 F.3d 720, 738-39 (6th
Cir. 2002) (noting Tennessee’s waiver provision
provides independent and adequate state law ground
that will generally bar federal habeas relief) (citing
Cone v. Bell, 243 F.3d 961, 969-70 (6th Cir. 2001), rev’d
and remanded on other grounds, 535 U.S. 685 (2002)
(holding Tennessee’s “waiver rule” is regularly
applied)). Accordingly, Underwood has defaulted this
claim.
Underwood attempts to establish cause for his
default by citing post-conviction counsel’s alleged
ineffectiveness in failing to raise and argue the claim
that Marlow was ineffective in challenging the

App. 44
admissibility of his statement to law enforcement on
February 25, 2005, as the statement was the direct
result of pretrial counsel Fannie Harris’ erroneous
legal advice [Doc. 9 p. 25]. He also alleges postconviction counsel Leonard was ineffective when he
failed to put Underwood on the stand during the postconviction hearing and question him about what he
believed the nature of the February 25 interview to be
[Id.].
The Court finds that Underwood cannot establish
that counsel rendered ineffective assistance in failing
to properly challenge the statement he gave during the
February 25 interview, as Marlow did challenge that
interview [Doc. 30-14 p. 131-39]. Moreover, the
interview Underwood seeks to challenge was a second
interview; he had already confessed to the crimes in the
first interview following a waiver of his rights [See Doc.
30-1 p. 83]. Therefore, even if the second interview had
been excluded, Underwood would still have implicated
himself in the murders, and he cannot demonstrate
that he was prejudiced because his February 25
interview was not excluded at trial.
Moreover, to the extent that he raises this as an
independent claim of post-conviction counsel based on
Leonard’s failure to put Underwood on the stand
during the post-conviction hearing, the Court notes
that there is no constitutional right to an attorney in
State post-conviction proceedings, and therefore, to the
extent this is an independent claim, it is not cognizable.
See, e.g., 28 U.S.C. § 2254(i) (stating claims alleging
ineffective assistance of collateral review counsel not
cognizable); Martinez, 566 U.S. at 9; Coleman, 501 U.S.

App. 45
at 752 (“There is no constitutional right to an attorney
in state post-conviction proceedings.”). This claim is
dismissed.
V.
CLAIMS 9 & 10
In Claims 9 and 10, Underwood claims that the trial
court erred in “dismissing” appointed counsel, Hershell
Koger, instead of having him assist counsel retained by
Underwood’s family. This issue was raised on direct
appeal, where the Tennessee Court of Criminal
Appeals noted the following:
The record shows that the defendant had several
different attorneys during the pretrial period.
The defendant’s family first funded private
counsel for the defendant who then withdrew
from representation. The court then appointed
the public defender’s office to represent the
defendant. After a conflict of interests was
discovered, the public defender’s office withdrew
from the case, and the court appointed Hershell
D. Koger on July 18, 2005, to represent the
defendant. Mr. Koger participated in a
significant amount of the pre-trial process. On
February 24, 2006, Robert Marlow, who
ultimately served as defendant’s trial and
appellate counsel, filed a notice of appearance.
Mr. Marlow stated to the trial court that he had
filed a notice of appearance “to notify the Court
and the parties [that he had] been retained and
[was] going to take part in anything and
represent [the defendant] in any way.” Mr.

App. 46
Marlow stated that, “Both Mr. Underwood and
his mother and the other family members know
by doing so that may very well necessitate the
disqualification of Mr. Koger.”
Underwood I, 2008 WL 5169573, at *15–16. During
pre-trial proceedings, Underwood stated that he had no
objection to replacing Koger with Marlow as attorney
of record [Doc. 30-6 p. 46]. Marlow stated that
Underwood’s family had retained his services, and that
if Koger were allowed to withdraw, he was “willing to
take fully responsibility for the representation” going
forward without anticipating the need to request a
continuance [Id. at 48-49]. Koger’s subsequent motion
to withdraw was granted, with the trial court noting
that “[Underwood] is not entitled to both retained and
appointed counsel” [Doc. 30-2 p. 30-31].
While Underwood appealed the substitution of
Koger, he waived the issue by failing to raise the issue
until his motion for a new trial. Underwood I, 2008 WL
5169573, at *15-17. Moreover, the appellate court
noted, Underwood stated he did not object to Marlow
replacing Koger as counsel, which contradicted his view
on appeal. Id.
Here, the State court declined to reach the merits of
Underwood’s claim due to application of an
independent and adequate State procedural rule,
barring the claim on habeas review unless Underwood
can demonstrate cause and prejudice, or that failure to
consider the claims will result in a fundamental
miscarriage of justice. Coleman, 501 U.S. at 750;
Hutchinson, 303 F.3d at 738-39. The Court finds that

App. 47
Underwood has argued no exception that would vitiate
the bar, and this claim is dismissed.
VI.
CLAIMS 11 & 12
In Claims 11 and 12, Underwood claims he received
the ineffective assistance of pretrial counsel, Fannie
Harris, when she failed to provide “adequate
protections” to him during his February 25, 2005,
interview with the ADA.
On post-conviction appeal, the Tennessee Court of
Criminal Appeals found Harris did not render
ineffective assistance, noting (1) the February 25
interview was not conducted as part of plea
negotiations; (2) any alleged error was trial counsel’s
failure to object to the statement at trial; and (3) even
assuming deficient performance, Underwood could not
show he was prejudiced by the introduction of the
statements from that interview. Underwood II, 2015
WL 3533718, at *7.
At Underwood’s evidentiary hearing, Harris
testified that although she did not remember seeking
formal protection for Underwood prior to his making a
statement to the district attorney, she had no reason to
believe he would make incriminating statements, or
else she would not have agreed to the interview. Id. at
*4. Moreover, the transcript from the February 2005
interview was never admitted during either appeal,
and Underwood’s November 10, 2004, interview was
admitted, in which he discussed his participation in the
murders. Therefore, as the State court found,
Underwood’s credibility was unlikely to have been

App. 48
“significantly affected by the introduction of his
February 25 statements.” Id. at *7. Accordingly,
Underwood has not demonstrated that the rejection of
this claim was contrary to or involved an unreasonable
application of Strickland and its progeny, nor has he
demonstrated that it was based upon an unreasonable
determination of facts in light of the evidence
presented. These claims are dismissed.
VII.
CLAIMS 14 & 15
Underwood claims that the trial court erred in
denying his request for a continuance of trial. In
discussing this claim on direct appeal, the Tennessee
Court of Criminal Appeals determined the trial court
had not abused its discretion in denying Underwood’s
request, as Underwood had failed to offer evidence that
the denial of a continuance prejudiced his defense.
Underwood I, 2008 WL 5169573, at *20-21. The State
court found:
[T]he defendant and his counsel had ample
means and opportunity to investigate and
develop mitigating evidence. When defense
counsel noted his appearance to the court, he
assured the trial court that he was familiar with
the case. Although defense counsel served as
defendant’s attorney for less than two months,
the defendant had been represented by Mr.
Koger for more than seven months prior to that.
The record shows that Mr. Koger served as an
aggressive advocate for the defendant, filing
several motions regarding expert assistance,
discovery, and continuance of the trial date.

App. 49
Further, we note that the trial court had ordered
a continuance of the defendant’s trial date on
four separate occasions. The defendant did not
suffer prejudice as a result of the trial court’s
denial of a continuance, and the trial court did
not err.
Id.
The denial of a continuance rises to the level of a
constitutional violation only where the circumstances
denying the continuance are so arbitrary as to violate
due process, and the denial results in actual prejudice
to the defense. See Burton v. Renico, 391 F.3d 764, 722
(6th Cir. 2004) (citing Morris v. Slappy, 461 U.S. 1, 1112 (1983)). While Underwood argues that he was
denied an adequate opportunity to gather mitigating
evidence due to the trial court’s denial of a continuance,
he offers no evidence that the trial court’s denial
deprived him of his constitutional rights under the
above-cited standard. Accordingly, the Court finds that
the decision rejecting this claim was not contrary to,
nor did it involve an unreasonable application of,
clearly established Supreme Court law, nor was it
based on an unreasonable determination of facts in
light of the evidence presented. These claims are
dismissed.
VIII.
CLAIMS 16 & 17
In his final claims of error, Underwood alleges that
the trial court erred in denying his ex parte motions for
a mitigation expert, a forensic neuropsychologist, and

App. 50
a DNA expert [See Doc. 30-3 p. 6-10; Doc. 30-4 p. 3-15;
Doc. 30-5 p. 9-35].
In rejecting this claim on direct appeal, the
Tennessee Court of Criminal Appeals noted the trial
court had previously granted Underwood $5,000 with
which to hire an investigator, and that the ex parte
motion for a mitigation expert requested same private
investigator. Underwood I, 2008 WL 5169573, at *17.
The appellate court also noted that in denying the
motion for forensic neuropsychologist, the trial court
found that Underwood “was subject to in-patient
psychiatric treatment services. . . Those records are
readily available, and the treating physicians may be
subpoenaed to discuss [Underwood]’s mental issues.”
Id. The Court of Criminal Appeals stated that in
denying DNA services, the trial court found that no
particularized need for the services was shown. Id. at
*18. Noting that Underwood had twice been granted
funding for the employment of investigative services
and had been granted the services of an expert in
fingerprint analysis, the Tennessee Court of Criminal
Appeals found that Underwood’s opportunity to present
a defense was not diminished, nor was he denied a fair
trial, by the denial of these other expert services. Id. at
*19-20.
In Ake v. Oklahoma, 470 U.S. 68 (1985), the
Supreme Court held that an indigent defendant is
entitled to expert assistance under certain
circumstances. Id. at 74. Ake was concerned that
defendants not be deprived of such a “basic tool” of
defense, such that its deprivation results in a
fundamentally unfair trial. Id. at 83. The Sixth Circuit

App. 51
has “interpreted Ake as allowing psychiatric assistance
during the sentencing phase if 1) the defendant’s sanity
was a significant factor at trial, or 2) the state presents
at sentencing psychiatric evidence of future
dangerousness.” Smith v. Mitchell, 348 F.3d 177, 207
(6th Cir. 2003).
Federal habeas review of a trial court’s denial of
expert services “must focus on the showing made as to
the necessity of the expert, the type of expert required,
how the expert would be useful, and also that a
reasonable probability exists that denial of expert
assistance would result in a fundamentally unfair
trial.” Thacker v. Rees, 841 F.2d 1127, 1988 WL 19179,
at *8. (6th Cir. 1988); see also Terry v. Rees, 985 F.2d
283, 284 (6th Cir. 1993) (noting Ake stands for
proposition that criminal trials are fundamentally
unfair “if a state proceeds against an indigent
defendant without marking certain that he has access
to the raw materials integral to building a defense”).
The record in this case supports the conclusion that
Underwood was twice granted funding for investigative
services, that he had received a forensic evaluation to
evaluate his competency to stand trial and his mental
condition at the time of the offense, and that he failed
to present evidence to disprove that his defense counsel
was incapable of reviewing mitigating evidence and
social history himself at the time the motions for
continuance were filed. Therefore, he has not
established that the trial court violated his
constitutional rights when it denied his request for
additional funding for mitigation experts. Accordingly,
the Court finds that the decision rejecting this claim

App. 52
was not contrary to, nor did it involve an unreasonable
application of, clearly established Supreme Court
precedent8, nor was it based on an unreasonable
determination of facts in light of the evidence
presented. These claims are dismissed.
IX.
CERTIFICATE OF APPEALABILITY
A petitioner must obtain a certificate of
appealability (“COA”) before he may appeal this Court’s
decision denying federal habeas relief. 28 U.S.C.
§ 2253(c)(1). A COA will not issue unless a petitioner
makes “a substantial showing of the denial of a
constitutional right” of any claim rejected on its merits,
which a petitioner may do by demonstrating that
“reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529
U.S. 473, 484 (2000). To obtain a COA on a claim that
has been rejected on procedural grounds, a petitioner
must demonstrate “that jurists of reason would find it
debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of
reason would find it debatable whether the district
court was correct in its procedural ruling.” Slack, 529
U.S. at 484 (emphasis added). Applying this standard,
8

The Court otherwise notes that the Supreme Court has not
explicitly extended Ake to non-psychiatric experts. See, e.g.,
McGowan v. MacLaren, No. 1:13-CV-904, 2017 WL 3175767, at *12
(W.D. Mich. Mar. 31, 2017), report and recommendation adopted,
No. 1:13-CV-904, 2017 WL 3172840 (W.D. Mich. July 26, 2017),
certificate of appealability denied sub nom. McGowan v. Winn, No.
17-2000, 2018 WL 1414902 (6th Cir. Mar. 21, 2018).

App. 53
the Court concludes that a COA should be denied in
this case.
X.
CONCLUSION
For the reasons set forth above, Jason Underwood
has failed to demonstrate an entitlement to federal
habeas relief. Therefore, it is hereby ORDERED that
his petition for a writ of habeas corpus is DENIED,
and this action is DISMISSED WITH PREJUDICE.
It is FURTHER ORDERED that a certificate of
appealability from this decision is DENIED. A
separate judgment order will issue.
IT IS SO ORDERED.
/s/ Harry S. Mattice, Jr.
HARRY S. MATTICE, JR.
UNITED STATES DISTRICT JUDGE

App. 54
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
No.: 1:15-CV-331-HSM-SKL
[Filed March 19, 2019]
__________________________
JASON C. UNDERWOOD, )
)
Petitioner,
)
)
v.
)
)
CHERRY LINDAMOOD,
)
)
Respondent.
)
__________________________ )
JUDGMENT ORDER
In accordance with the Memorandum Opinion and
Order entered today, Jason Underwood’s petition for a
writ of habeas corpus is DENIED, and this action is
DISMISSED WITH PREJUDICE. A certificate of
appealability from this decision is DENIED.
IT IS SO ORDERED.
/s/ Harry S. Mattice, Jr.
HARRY S. MATTICE, JR.
UNITED STATES DISTRICT JUDGE
ENTERED AS A JUDGMENT
/s/ John L. Medearis
CLERK OF COURT

App. 55

APPENDIX C
Rec’d from Robert Crigler
IN THE CIRCUIT COURT OF
BEDFORD COUNTY, TENNESSEE
CASE NO. 11978 15691
[Filed January 14, 2011]
______________________________________
STATE OF TENNESSEE
)
)
VS
)
)
JASON CHRISTOPHER UNDERWOOD )
______________________________________ )
ORDER
This cause came on to be heard on the 24th day of
September and the 15th day of November, 2010, before
the Honorable Robert Crigler, Circuit Judge, Part I, in
Shelbyville, Bedford County, Tennessee, upon
defendant’s post conviction petition, amended petition,
State’s answer, defendant’s motion to continue postconviction hearing, defendant’s motion for DNA testing,
defendant’s motion for writ of error coram nobis,
testimony, statements of counsel, and from the record
as a whole, from all of which the Court finds that said
motions and petitions are not well-taken, and should be
denied for the reasons set forth below. The Court
makes the following findings of facts and conclusions of
law:

App. 56
ORIGINAL CASE HISTORY
a. On or about October 24, 2004, Rebecca Ray
and Anthony Baltimore were murdered in
Bedford County, Tennessee.
b. On November 10, 2004, Det. Sgt. Jason
Williams obtained arrest warrants against
the defendant.
c. On December 17, 2004, the General Sessions
Court for Bedford County, Tennessee, bound
the defendant over to the next meeting of the
Bedford County Grand Jury. The defendant
was represented by retained counsel at the
time, the Honorable Fannie Harris.
d. On January 20, 2005, the Bedford County
Grand Jury indicted the defendant in count
one with first degree murder of Rebecca Ray,
and in count two with the murder of Anthony
Baltimore, and in count three with felony
theft. Retained counsel, the Honorable
Fannie Harris, arraigned the defendant that
afternoon.
e. After several continuances, the defendant
filed a motion to recuse and a motion to
withdraw which motions were heard May 16,
2005, and taken under advisement until
June 1, 2005, at which time the Court denied
the motion to recuse and granted the motion
to withdraw.
f. On June 20, 2005, the Court appointed the
Public Defender’s Office to represent the
defendant who in turn filed their own motion
to withdraw on July 6, 2005, which motion
the Court granted after an ex parte hearing

App. 57

g.

h.

i.

j.

k.

at the Public Defender’s Office request. On
July 18, 2005, the Court appointed the
Honorable Herschel Koger to represent the
defendant after obtaining from him his
assurance that his schedule was clear so he
could try this case in December 2005.
On August 2, 2005, the Court set the case for
trial beginning December 5, 2005, in open
court with counsel for both parties’
agreement, and also set September 19, 2005,
for pre-trial motions/conference.
On September 19, 2005, the case was called
and the defendant announced that he had
filed no motions thus far but requested and
was granted additional time within which to
file motions and the case was reset for
November 21, 2005.
On October 28, 2005, the defendant filed
motions for a forensic evaluation and to
continue the December trial date. These
motions were heard and granted on
November 2, 2005.
On November 21, 2005, the Court set the
case for a jury trial beginning with two days
of jury selection beginning on April 6, 2006,
and opening statements beginning April 10th
2006, with the trial scheduled to last for the
remainder of that week. This scheduling was
done in open court with counsel for both
parties’ agreement.
On December 7, 2005, the Court held ex
parte hearings on the defendant’s motions for
Funds for a Mitigation Specialist and for a
Forensic Neuropsychologist, which the Court

App. 58
denied. The Court had previously granted the
Defendant ex parte funds for investigative
services.
l. On December 21, 2005, the Court entered an
order directing forensic evaluation by Secure
Forensic Services Program at the Mental
Health Institute, and set a motion date for
February 24, 2006.
m. On February 24, 2006, the Court heard the
defendant’s motion to suppress and for
change of venue which were taken under
advisement and later denied in a written
opinion. Also, on February 24th, 2006, the
Court had a hearing upon the motion to
withdraw filed by appointed counsel, Hershel
D. Koger. Mr. Marlow stated to the trial
court he had filed a notice of appearance and
“both Mr. Underwood and his mother and the
other family members know by doing so that
may very well necessitate disqualification of
Mr. Koger.” The Court, at the request of the
state, and with consent of Mr. Koger asked
the defendant “do you have any objection
with the substitution of counsel, that is to
replace Mr. Koger with Mr. Marlow as your
attorney of record in this case”? To which the
defendant answered, “No sir.”
The trial court then questioned Mr. Marlow:
The Court: just the defendant. You won’t
have any conflict of interest. You would just
be representing the defendant and only the
defendant.

App. 59
Mr. Marlow: He is the only client. I have
explained to him under the rule although
they may be supplying the financial
resources for my services, that doesn’t entitle
them to know anything that pertains to the
attorney/client relationship.
The Court: When you use in this notice of
appearance the phrase ‘assist in the defense’,
is that a full and unqualified entry of
appearance to represent the defendant?
Mr. Marlow: Yes, Your Honor.
The Court: You are not asking to assist and
be co-counsel with Mr. Koger. You are asking
to be Mr. Underwood’s counsel; is that
correct?
Mr. Marlow: I filed notice that the family has
paid me to assist and represent Mr.
Underwood in these charges. I wanted to
make abundantly clear the resources that
have been utilized for my services have not in
any way come from Mr. Underwood himself.
The Court: My primary concern in this
question is the ‘assist in the defense’.
It is just out of an effort to avoid any
misunderstanding what you are asking is to
take full, complete and sole control of the
case; is that correct?
Mr. Marlow: If Mr. Koger is going to be
allowed to withdraw or is otherwise

App. 60
disqualified, I am able, willing to take full
responsibility for the representation of Mr.
Underwood from this point forward.
The Court: All right. Another question is
when did you first begin discussing the case,
this particular case, with members of the
defendant’s family?
Mr. Marlow: It would have been shortly after
the offense occurred. I know it was after
Thanksgiving ’04 I saw the defendant’s uncle
at Wal-Mart. And then shortly thereafter in
December his mother came to the office
............
The Court: ........ If the Court allows Mr.
Koger to withdraw, will you be seeking a
continuance of the trial in this case?
Mr. Marlow: No, I do not. I have kept up with
the calendar. I have got it marked-the trial
date marked off on my trial calendar and
sufficient time between now and then to be
prepared. Based on what I know about the
case, I do not anticipate moving for a
continuance.
The Court then granted Mr. Koger’s motion to
withdraw and allowed Mr. Marlow to be substituted as
counsel of record. State v. Green, 613 S.W. 2d 229,
(Tenn.Crim.App.1980); State v. Wiggins, 729 S.W. 2d
291, (Tenn.Crim.App.1987); State v. Gilmore, 823 S.W.
2d 566,(Tenn.Crim.App.1991).

App. 61
n) Mr. Marlow, now officially counsel of record,
then filed several ex parte motions as follows:
1) 3/13/06-Motion for additional funds for
investigative services—granted.
2) 3/20/06-renewed motions previously heard
for funds for mitigation specialist and for
forensic neuropsychologist, both denied,
3) 3/24/06-Motion for expert in latent print
examination-granted; and
4) 3/29/06-Motions for expert in DNA
analysis, for interlocutory appeal, and to
continue trial-denied.
These motions were well-prepared and
presented and obviously the product of extensive
manpower and effort.
o) On June 9th, 2006, a Bedford County Jury
found the Defendant guilty of both counts of
first-degree murder and imposed sentences of
life without parole.
POST-CONVICTION PROCEDURAL HISTORY
1.
2.

3.

On December 2nd, 2009, the Defendant filed
his pro se post-conviction petition.
On December 21st, 2009, the Court appointed
Chris Westmoreland to represent the
Defendant and set a hearing date of April
29th, 2010.
Shortly before the April hearing, the
Honorable Russell L. Leonard filed a Motion
to Continue averring that he had been
retained on April 13th, 2010. With consent of

App. 62

4.

5.
6.
7.
8.

9.

10.

11.

all parties, Mr. Leonard was substituted as
counsel of record, his motion to continue was
granted and a new hearing date was set for
August 23rd, 2010.
On May 18th, 2010, the Defendant filed a
Motion for Extended Continuance based on
inacessability of records due to flooding
which the Court denied on June 9th, 2010, in
order to comply with T.C.A. 40-30-109 and
because the Defendant had alternate access
to the transcripts and record.
On July 15th, 2010, the Defendant filed a
Renewed Motion to Continue.
On July 26th, 2010, the Defendant filed Writ
of Error Corum Nobis.
On August 18th, 2010, the State filed its
Answer.
On August 23rd, 2010, the Court granted the
Defendant’s Motion to Continue after
argument in open court and set a hearing
date for September 24th, 2010, at 1:00 p.m.
On September 24, 2010, the Defendant filed
a Motion for DNA analysis. The Court began
the hearing but was unable to conclude it
that day. By agreement, the Court scheduled
the conclusion of the hearing on November
15th.
On October 4th, 2010, the Defendant filed a
Renewed Motion for DNA analysis and on
October 29th, 2010, a Motion to Continue the
November 15th hearing.
On November 15th, 2010, the Court finished
the post-conviction hearing after hearing
argument on and denying the Defendant’s

App. 63
most recent motion to continue Motion for
Writ of Error Coram Nobis and Motion for
DNA Analysis.
MOTION FOR WRIT OF ERROR CORAM NOBIS
T.C.A. 40-26-105 provides that the one year statute
of limitations for writ of error coram nobis actions can
be tolled if there is an allegation that newly discovered
evidence exists. The statute of limitations is not tolled
by an allegation that newly discovered evidence might
exist if more DNA tests are performed. The defendant’s
motion for writ of error corum nobis was filed on July
26th, 2010. The Court of Criminal Appeals affirmed the
Defendant’s convictions and sentence on December 10th,
2008. As noted in the amended petition for postconviction relief, there was no application for
permission to appeal to the Tennessee Supreme Court.
Therefore, the Defendant’s Motion for Writ of Error
Coram Nobis is barred by the statute of limitations.
Denial of defendant’s petition for writ of error
coram nobis was proper under T.C.A. 40-26105(b) because she failed to present her claim
within one year of her conviction of especially
aggravated robbery becoming final and she was
not denied a reasonable opportunity to present
her claim. Due process did not require tolling of
the statute of limitations. State v. Locke, -S.W.3d-, 2010 Tenn. Crim. App. LEXIS 555
(Tenn. Crim. App. July 6, 2010).

App. 64
MOTION FOR DNA ANALYSIS
Tennessee Code Annotated 40-30-304 requires that
four findings must be made before DNA analysis is
ordered:
(1)

A reasonable probability exists that the
petitioner would not have been prosecuted or
convicted if exculpatory results had been
obtained through DNA analysis.
The DNA evidence linking the defendant to
the crime scene and the victims was not the
only convicting evidence. The defendant’s
fingerprint was found preserved in human
blood at the scene and on the body of Ms.
Ray, the defendant confessed to the
stabbings, and a bloodhound tracked the
defendant’s scent from the stolen GMC
pickup to an area near his house. In light of
this overwhelming evidence of the
defendant’s guilt, the petitioner has not
shown factor #1.

(2)

The evidence is still in existence and in such
a condition that DNA analysis may be
conducted.
While it may be that the evidence still exists
in such a condition that DNA analysis could
be conducted, there was no proof presented
by the defendant on this point.

(3)

The evidence was never previously subjected
to DNA analysis or was not subjected to the
analysis that is now requested which could

App. 65
resolve an issue not resolved by previous
analysis; and
In fact, evidence from the crime scene was
subjected to DNA analysis.
(4)

The application for analysis is made for the
purpose of demonstrating innocence and not
to unreasonably delay the execution of
sentence or administration of justice.
The defendant’s motion on its face shows
that the analysis sought is not made for the
purpose of demonstrating innocence:
If such a DNA analysis is conducted and
a determination is made that this sample
did not come from the Petitioner herein.
Petitioner avers that this would indicate
that at least one other individual was
present at the scene and sustained an
injury during the course of participating
in this horrific murder. Your Petitioner
avers that while such evidence might not
completely exonerate him it may very
well support the new evidence he has
brought forth via his Writ of Error Coram
Nobis which is currently before the Court.
POST-CONVICTION ISSUES

1. The Defendant contends that Fannie Harris was
ineffective in failing to properly qualify the
Defendant’s interview with Assistant District
Attorney Michael Randles under Rule 11,

App. 66
Tennessee Rules of Criminal Procedure, as a
statement made in the course of plea negotiations.
Rule 11(d) provides that the admissibility of a
plea discussion or related statement is governed by
Tennessee Rule of Evidence 410. Neither Rule 11 or
410 contain a requirement that counsel “qualify”
such an interview. Ms. Harris was not counsel at
trial, Mr. Marlow was. If there was ineffective
assistance of counsel it was in the failure to object
at trail. Post-conviction counsel elected not to allege
ineffective assistance against Mr. Marlow in the
post-conviction petition or hearing on this issue
and, thus, this issue is not before the Court.
Also, the Court finds that the Defendant insisted
on this meeting thinking either that he could talk
his way out of the charges or that he could talk his
way into a favorable settlement. While the meeting
was unwise for the Defendant, he cannot
successfully complain about getting an interview
that he himself insisted upon.
There is a strong presumption that the conduct
of counsel falls within the range of reasonable
professional assistance, see Strickland, 466 U.S. at
690, 104 S. Ct. at 2066, and may not second-guess
the tactical and strategic choices made by trial
counsel unless those choices were uninformed
because of inadequate preparation. See Hellard v.
State, 629 S.W.2d 4, 9 (Tenn. 1982). The fact that a
strategy or tactic failed or hurt the defense does not
alone support the claim of ineffective assistance of
counsel. See Thompson v. State, 958 S.W.2d 156,
165 (Tenn. Crim. App. 1997). Finally, a person

App. 67
charged with a criminal offense is not entitled to
perfect representation. See Denton v. State, 945
S.W.2d 793, 796 (Tenn. Crim. App. 1996). As
explained in Burns, 6 W.W.3d at 462, “[c]onduct
that is unreasonable under the facts of one case
may be perfectly reasonable under the facts of
another.”
Moreover, even though this interview may
have made his defense more difficult at trial,
evidence of the Defendant’s guilt is
overwhelming. The Court incorporates the Court
of Criminal Appeal’s opinion from the appeal in
this case and its excellent eleven page summary
of the facts entitled “Trial Evidence” State v.
Underwood, M 2006-01826-CCA-R3-(1) (Tenn.
Crim. App. 2008). Accordingly, error regarding
this interview was not such as to deprive the
Defendant of a fair trial or to cast doubt on his
guilt.
In order to prove ineffective assistance of
counsel, the petitioner must prove that (1) counsel’s
performance was deficient, and (2) the deficiency
was prejudicial in terms of rendering a reasonable
probability that the result of the trial was
unreliable or the proceedings were fundamentally
unfair. Strickland v. Washington, 466 U.S. 668, 687,
104 S. Ct. 2052, 2064, 80L.
2. The Defendant contends that both Mr. Koger and
Mr. Marlow were ineffective in failing to properly
pursue motions for DNA analysis, mental health
evaluations and mitigation investigation services.
The Court finds that not only has the Defendant

App. 68
failed to prove that these trial attorneys were
ineffective in not obtaining additional DNA
analysis, post-conviction counsel has failed himself
to establish entitlement to further DNA analysis as
noted above in this Memorandum Order regarding
the post-conviction motion for DNA analysis. T.C.A.
40-30-110(f) provides, in part, that “[t] he petitioner
shall have the burden of proving the allegations of
fact by clear and convincing evidence.” Mr. Marlow’s
testimony that “I was ineffective in not persuading
the Court to give us these experts “without further
proof, elaboration or explanation is not clear and
convincing evidence, but ‘“falling on the sword” to
try and help his former client.
The petition raises the court’s denial of ex parte
motions for funds for experts in mitigation, mental
health and DNA. Tennessee Code Annotated 40-30106 provides that post-conviction claims are waived
if they were or could have been raised on appeal.
These issues were raised on appeal and ruled upon
by the Court of Criminal Appeals; State of
Tennessee v. Jason Christopher Underwood,
M2006-01826-CCA-R3-CD, p. 20-21;
The trial court did not abuse its discretion in
denying the defendant’s ex parte motions for a
mitigation expert and a forensic
neuropsychologist. The mitigation expert that
the defendant requested was the same
investigating service for which the trial court
had twice granted funding. Nothing suggests
that defense counsel was not capable of
reviewing mitigating evidence and the

App. 69
defendant’s “social history.” At the trial level,
the defendant and his counsel had access to the
defendant’s medical records, criminal history,
and mental health records, and counsel had the
opportunity to interview the defendant. The
defendant has failed to show a “particularized
need” for a mitigation expert or why such an
expert was required for a fair trial. The trial
court did not err in denying defendant’s request
for a mitigation expert.
Further, the absence of a neuropsychologist
did not diminish the defendant’s ability to
present a proper defense. The defendant had
received a forensic evaluation by Centerstone to
evaluate his competency to stand trial and his
mental condition at time of the offense.
Centerstone recommended that the defendant be
referred to the secure Forensic Services Program
of Middle Tennessee Mental Health Institute for
further evaluation. The trial court noted that the
doctors who do such evaluations “are not....
Hired guns for the DA’s office” and that “[t]here
is no reason why then can not help along with
the doctors that already exist to provide the
information and assistance that defense counsel
seeks.” We agree. The defendant had
opportunities to subpoena treating physicians as
experts; however, he did not use this opportunity
at trial. “Courts are not required to find the
defendant an expert who will support his theory
of the case.” Ruff v. State, 978 S.W.2d 95, 101
(Tenn. 1998) (citying Ake v. Oklahoma, 470 U.S.
68, 83, 105 S.Ct. 1087, 1096 (1985); Barnett, 909

App. 70
S.W.2d at 431). The trial court did not err in
denying the defendant’s request for a forensic
neuropsychologist.
The trial court did not abuse its discretion in
denying the defendant’s ex parte motion for a
DNA expert. Although DNA is a complex subject
matter, the defendant’s counsel had the
necessary knowledge to sufficiently crossexamine the State’s DNA expert, Mike
Tuberville of the TBI. Counsel questioned Agent
Tuberville regarding why he did not test hairs
that were found at the scene of the crime and
why he did not perform DNA testing more
thoroughly at the scene. The defendant did not
show that the denial of a DNA expert deprived
him of a fair trial. In the present case, the DNA
evidence linking the defendant to the crime
scene and the victims was not the only
convicting evidence. The defendant’s fingerprint
was found preserved in human blood at the
scene and on the body of Ms. Ray, the defendant
confessed to the stabbings, and a bloodhound
tracked the defendant’s scent from the stolen
GMC pickup to an area near his house. Further,
nothing in the evidence suggests that the
defendant’s DNA was misidentified or that the
samples were contaminated. Taking this into
consideration, it is difficult for this court to
reason that a DNA expert would have materially
assisted the defendant in trial preparation or
that the defendant was denied a fair trial.

App. 71
The assertion that counsel was ineffective in failing
to persuade the trial court to grant these motions is not
supported by any proof nor did the defendant prove any
deficiency by trial counsel that was prejudicial.
In order to prove ineffective assistance of
counsel, the petitioner must prove that
(1) counsel’s performance was deficient, and
(2) the deficiency was prejudicial in terms of
rendering a reasonable probability that the
result of the trial was unreliable or the
proceedings were fundamentally unfair.
Strickland v. Washington, 466 U.S. 668, 687,
104 S. Ct. 2052, 2064, 80L.
The Court finds that not only has the
defendant failed to prove that these trial
attorneys were ineffective in not obtaining
additional DNA analysis, post-conviction counsel
has failed himself to establish entitlement to
further DNA analysis as noted above in this
Memorandum Order regarding the postconviction motion for DNA analysis. T.C.A. 4030-110(f) provides, in part, that “[t]he petitioner
shall have the burden of proving the allegations
of fact by clear and convincing evidence.” Mr.
Marlow’s testimony that “I was ineffective in not
persuading the Court to give us these experts
“without further proof, elaboration or
explanation is not clear and convincing evidence,
but “falling on the sword” to try and help his
former client.
In Donnie E. Johnson v. State of Tennessee, No.
W2006-02208-CCA (March 22, 2007) the defendant

App. 72
petitioned for a DNA test of the garbage found in the
mouth of his wife, the victim, who was murdered by
suffocation. In this case, it was undisputed that both
the defendant and Ronnie McCoy collaborated in
transporting her body in her 1981 Ford van from the
sales office where she was murdered to a shopping
center a few miles away. They also placed inside her
van her broken spectacles, shoes, coat and earring
which had become dislodged in her struggle for breath.
At the penalty phase, the defendant testified that
McCoy killed the victim. The post-conviction court
concluded that even if DNA on the bag belonged to
McCoy it could have been deposited prior to or
subsequent to the murder. Thus, the presence of
McCoy’s DNA on the bag would not demonstrate the
defendant’s innocence. In the instant case, the presence
of third party DNA at the scene would not demonstrate
the defendant’s innocence.
3. The defendant argues that Mr. Koger was
ineffective in moving to withdraw. The facts
surrounding this motion to withdraw are set forth
in the original case history above as well as in the
Court of Criminal Appeals opinion at page 17;
It is apparent from the record that Mr.
Marlow filed a notice to appear and assured
the court that he would be prepared to
handle the entire trial without need of
continuance. Furthermore, the defendant
himself testified that he did not object to Mr.
Marlow’s replacing Mr. Koger as counsel.
The trial court clarified that the purpose of
Mr. Marlow’s notice of appearance was to

App. 73
represent the defendant and not simply to be
Mr. Koger’s co-counsel. Thus the defendant’s
position at the pre-trial hearing is
contradictory to the view he now espouses on
appeal.
Assuming arguendo that Mr. Koger’s motion to
withdraw constituted ineffective assistance, defendant
failed to prove at the PC hearing that this asserted
deficiency was prejudicial in terms of rendering a
reasonable probability that the result of the trial was
unreliable or that the proceedings were fundamentally
unfair.
IT IS THEREFORE ORDERED that the postconviction relief petition be and the same hereby is,
dismissed.
/s/Robert Crigler
ROBERT CRIGLER
CIRCUIT JUDGE, PART I
***
[Certificate of Service Omitted in the
Printing of this Appendix]

